_____________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_____________________________________________________________
CHARLES CHAD GIESE
Petitioner
v.
STATE OF CALIFORNIA
Respondent
___________________________________________
ON PETITION FOR WRIT OF CERTIORARI
TO THE CALIFORNIA COURT OF APPEAL SECOND
APPELLATE DISTRICT DIVISION SIX

PETITION FOR WRIT OF CERTIORARI

FAY ARFA, A LAW CORPORATION
Fay Arfa, Attorney at Law
CA State Bar No. 100143
10100 Santa Monica Blvd., #300
Los Angeles, CA 90067
Tel.: (310) 841-6805
Fax :(310) 841-0817
Attorney for Appellant
CHARLES CHAD GIESE

QUESTIONS PRESENTED
I.

Did Police Violated Giese’s Miranda Rights by
Interrogating Him While He was in Custody?

II.

By Excluding Evidence of the Decedent’s Drug Use,
Was Giese Deprived of His Constitutional Right to
Present a Defense?

III.

Did the Prosecutor Commit Prejudicial Misconduct
by Misstating the Law During Closing Argument

i

TOPICAL INDEX
Page
QUESTIONS PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
OPINION BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
RELEVANT CONSTITUTIONAL PROVISIONS . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
A.

State Trial Court Proceedings . . . . . . . . . . . . . . . 2

B.

State Court Appellate Proceedings . . . . . . . . . . . 2

STATEMENT OF THE FACTS ELICITED FROM THE
CCA’S OPINION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
REASONS TO GRANT CERTIORARI . . . . . . . . . . . . . . . . . . . 7
I.

II.

Certiorari Should Be Granted to Determine if the
Police Violated Giese’s Miranda Rights by
Interrogating Him While He was in Custody . . . . . . . 7
A.

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7

B.

Custodian Interrogation . . . . . . . . . . . . . . . . . . . . 7

C.

The Deputies Subjected Giese to Custodial
Interrogation in Violation of Miranda . . . . . . . . 9

Certiorari Should Be Granted Because, by Excluding
Evidence of the Decedent’s Drug Use, Giese Was
Deprived of His Constitutional Right to Present a
Defense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
A.

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

ii

III.

B.

A Criminal Defendant Has the Constitutional
Right to Present a Defense . . . . . . . . . . . . . . . . . 11

C.

Methamphetamine Adversely Affects a Person’s
Mind . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13

D.

Giese Was Deprived of His Right to Present a
Defense . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

Certiorari Should Be Granted Because the
Prosecutor Committed Prejudicial Misconduct by
Misstating the Law During Closing Argument . . . . 15
A.

Introduction . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

B.

The Prosecutor Must Not Commit
Misconduct . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

C.

The Prosecutor Committed Prejudicial
Misconduct . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

1.

The Prosecutor Improperly Argued That Motive
Means First Degree Murder . . . . . . . . . . . . . . . . . . . 17

2.

The Prosecutor Improperly Argued That Giese
Committed Murder Because He Hid Evidence . . . . 18

3.

The Prosecutor Improperly Argued That Self-Defense
Requires That Giese Reasonably Believed He Was
Going to Be Killed . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

4.

The Prosecutor Improperly Misstated the “Average
Person” Standard for Provocation . . . . . . . . . . . . . . 19

5.

The Prosecutor Improperly Urged the Jury to Find
Murder if the Jury did not Find imperfect self-defense
(18RT 5120) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21

iii

6.

The Prosecutor Improperly Misstated the Law on
Premeditation . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

7.

The Prosecutor Improperly Argued That to Justify the
Killing, Giese Would Have Had to Suffer an
“Annihilated . . . Jaw.” (18RT 5192) . . . . . . . . . . . . 23

8.

The Prosecutor Misstated the Reasonable Doubt
Standard of Proof . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

D.

The Prosecutor’s Multiple Misstatements of
Law Constituted Prosecutorial Misconduct . . 24

E.

Defense Counsel Rendered Ineffective
Assistance by Failing to Object to the
Prosecutorial Misconduct . . . . . . . . . . . . . . . . . . 24

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
APPENDIX
A . . . . . . . . . . . . . . . . . . . . . . . Court of Appeal Opinion (2/26/2020)
Case No. B292208
B . . . . . . . . . . . . . . . Court of Appeal Modified Opinion (3/25/2020)
Case No. B292208
C . . . . . . . . . . . . . . . . . . . . . . Petition for Review Denied (5/27/20)
California Supreme Court Case No. S261456

iv

TABLE OF AUTHORITIES
FEDERAL CASES
Berger v. United States, 295 U.S. 78 (1935) . . . . . . . . . . . . . . . . . 16
Berkemer v. McCarthy, 468 U.S. 420 (1984) . . . . . . . . . . . . . . . . . 9
California v. Beheler, 463 U.S. 1121 (1983) . . . . . . . . . . . . . . . . . . 8
Chambers v. Mississippi, 410 U.S. 284 (1973) . . . . . . . . . . . . . . 12
Crane v. Kentucky, 476 U.S. 683 (1986) . . . . . . . . . . . . . . . . . . . . 12
Miranda v. Arizona, 384 U.S. 436 (1966) . . . . . . . . . . . . . . . 7 - 11
Oregon v. Mathiason, 429 U.S. 492 (1977) . . . . . . . . . . . . . . . . . . 8
Pennsylvania v. Muniz, 496 U.S. 582 (1990) . . . . . . . . . . . . . . . . . 8
Rhode Island v. Innis, 446 U.S. 291 (1980) . . . . . . . . . . . . . . . . . . 8
Strickland v. Washington, 466 U.S. 668 (1984) . . . . . . . . . . . . . . 25
Washington v. Texas, 388 U.S. 14 (1967) . . . . . . . . . . . . . . . . 11, 12
STATE CASES
In re Christian S., 7 Cal.4th 768 (1994) . . . . . . . . . . . . . . . . . 19, 21
People v. Beltran 56 Cal.4th 935 (2013) . . . . . . . . . . . . . . . . . . . . 20
People v. Boatman, 221 Cal.App.4th 1253 (2014) . . . . . . . . . . . . 22
People v. Boyette, 29 Cal.4th 381 (2002) . . . . . . . . . . . . . . . . . . . 24
People v. Centeno, 60 Cal.4th 659 (2014) . . . . . . . . . . . . . . . . 24, 25
People v. Enraca, 53 Cal.4th 735 (2012) . . . . . . . . . . . . . . . . . . . 13

v

People v. Fosselman, 33 Cal.3d 572 (1983) . . . . . . . . . . . . . . . . . 25
People v. Hillhouse, 27 Cal.4th 469 (2002) . . . . . . . . . . . . . . . . . 17
People v. Humphrey, 13 Cal.4th 1073 (1996) . . . . . . . . . . . . . 19, 21
People v. Lopez, 199 Cal.App.4th 1297 (2011) . . . . . . . . . . . . . . . 23
People v. Marshall, 13 Cal.4th 799 (1996) . . . . . . . . . . . . . . . . . . 24
People v. Najera, 138 Cal.App.4th 212 (2006) . . . . . . . . . . . . . . . 20
People v. Rios, 23 Cal.4th 450 (2000) . . . . . . . . . . . . . . . . . . . . . . 21
People v. Valencia, 43 Cal. 4th 268, 278 (2008). . . . . . . . . . . . . . 14
People v. Wright, 242 Cal.App.4th 1461 (2015) . . . . . . . . . . . 20, 21
People v. Yeoman, 31 Cal.4th 93 (2003) . . . . . . . . . . . . . . . . . . . . 18
FEDERAL CONSTITUTION
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
U.S. Const. amend. XIV . . . . . . . . . . . . . . . . . . . . . . . . . . . passim
FEDERAL STATUTES
28 U.S.C. § 1257 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATE STATUTES
Cal. Penal Code, § 187 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Penal Code, § 189 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
Cal. Penal Code, § 12022 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

vi

Case No.
_____________________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_____________________________________________________________
CHARLES CHAD GIESE
Petitioner
v.
STATE OF CALIFORNIA
Respondent
___________________________________________
Petitioner, CHARLES CHAD GIESE, respectfully petitions
for a writ of certiorari to review the judgment of the California
Court of Appeal, Second Appellate District, Division Six (Case No.
B292208)
OPINION BELOW
The CCA affirmed Giese’s conviction and denied rehearing.
(Case No. B292208) (Appendix A) The CSC summarily denied
review. (Case No. S261456) (Appendix B)

1

JURISDICTION
On May 27, 2020, the CSC denied review. (Appendix B)
The Court has jurisdiction. 28 U.S.C. § 1257(A).
RELEVANT CONSTITUTIONAL PROVISIONS
U.S. Const. amends. V, VI, XIV.
STATEMENT OF THE CASE
A.

State Trial Court Proceedings

The jury convicted Giese of willful, deliberate, and
premeditated murder (Cal. Penal Code, §§ 187, 189) and found
true allegations that in committing the murder he used two
deadly weapons, i.e., a baseball bat and a knife.1 (§ 12022, subd.
(b)(1)).
The trial court sentenced him to 26 years to life in state
prison.
B.

State Court Appellate Proceedings

The CCA affirmed Giese’s conviction. (Case No. B292208)
The CSC denied review. (Case No. S261456))

All references are to the California Penal Code unless
otherwise stated.
1

2

STATEMENT OF FACTS
ELICITED FROM THE CCA’S OPINION
(Footnotes Contain Facts
that Giese Believes Should Have Been Included)
In early 2015,2 appellant began renting a room
in Walter Vallivero’s mobile home. Shortly after
appellant moved in, the manager of the mobile home
park began receiving complaints from other residents
about frequent loud arguments at Vallivero’s home.3
There were also complaints that appellant had
urinated in public and was acting strangely.4 Several
residents requested that appellant be ordered to leave
the mobile home park. Shawn Reed, the owner of the
park, sent Vallivero a letter outlining the complaints
regarding appellant and stating that he would be
asked to leave the park if his inappropriate behavior
continued.
On September 5, the police were called to
Vallivero’s home regarding a physical altercation
between appellant and Vallivero. Appellant told the
police that he and Vallivero were arguing about trash

2

All date references are to the year 2015.

After appellant moved in with Vallivero, the two engaged in
frequent arguments in which Vallivero did most of the arguing
and talking, while appellant was pretty quiet. (9RT 2461-2462;
AOB 18) Vallivero typically talked down to appellant and said
things like, “I hate you.” (9RT 2458-2460; 10RT 2729; AOB 18)
Neighbor/witness Sarah Demolar heard them argue constantly
and heard Vallivero tell appellant, “I’ll blow your fucking face
off.” (10RT 2730; 12RT 3415- 3416, 3425; AOB 19)
Neighbor/witness Joshua Demolar heard Vallivero say to
appellant: “I will shoot you in the face.” (10RT 2770- 2771; AOB
19)
3

Appellant had been treated by mental health for
schizophrenia. (1CT 176; AOB 21)
4

3

in the kitchen when Vallivero reached into the
cushion on the couch and pulled out a BB gun.
Appellant grabbed the hand that was holding the gun
and repeatedly punched Vallivero in the face.
Vallivero told the responding officers that appellant
repeatedly punched him in the face after he
confronted appellant about the messy kitchen.
According to Vallivero, whose face was bloody and
swollen, it was appellant who grabbed the BB gun
from the couch cushions before running outside.5
A few days later, Reed sent Vallivero a letter
referring to the recent incident and revoking
Vallivero’s right to have appellant as a renter. On
September 17, Reed sent Vallivero another letter
informing him that appellant had 30 days to
vacate the premises. Ten days later, Reed sent
Vallivero a letter informing him that appellant had
been observed recklessly driving in the mobile home
park while intoxicated. Vallivero subsequently told
Reed “he was having a hard time getting an
agreement with [appellant] to vacate the park.” On
October 7, appellant was formally served with notice
of the eviction proceedings against him.
On the morning of November 16, appellant’s
mother Brenda Caves called 911 and reported that
appellant had hit his roommate with a baseball bat,
that the roommate did not appear to be breathing,
and that appellant had put him in the bathtub.
San Luis Obispo County Sheriff’s Deputies Dustin
In the September 5, 2015 incident in which police were
called to the scene, neighbor/witness Barbara Clark testified
appellant looked scared, told her Vallivero had attacked him and
pulled a gun on him, and asked her to call 911. (10RT 2713-2714;
2717; AOB 19) Vallivero had a .22 blood alcohol count. He
asserted appellant had attacked him. (8RT 2249-2251; AOB 20)
The responding deputy thought appellant’s account was more
credible and recommended that assault charges be filed against
Vallivero. (8RT 2251; AOB 20)
5

4

Phillips and Jason Hall responded to Caves’s house.
Appellant was outside the house with Caves and his
hand was bandaged.6 Appellant requested medical
assistance and Deputy Hall rode with him in an
ambulance to the hospital. While they were in the
ambulance, appellant said he cut his finger on a glass
bottle and that his jaw hurt because he had been hit
with a fist.
Vallivero’s body was found in the bathtub. He
had a laceration to his left arm, a deep incision
wound on the back of his neck, lacerations and
fractures along the left side of his head, stab wounds
to his back, and numerous wounds to his head and
body that were consistent with blunt force trauma.
Vallivero also had defensive wounds on his forearms,
hands, and wrists, and bruises on the right side of his
torso. The cause of death was blunt force injuries to
the head. Toxicology results showed that Vallivero
had a 0.19 blood alcohol level; tests for controlled
substances were negative.
Appellant was interviewed at the hospital and
later at the sheriff’s station.7 He said he had just
finished cleaning the kitchen when Vallivero arrived
home after buying beer and told him to “get the fuck

Deputies ordered appellant to come out of his mother’s
house and to walk backwards toward the deputies, who patted
him down on the street. After he came out of the house, a law
enforcement officer (deputy or detective) was with him at all
times. (5RT 1210, 1212, 1217, 1224-1225, 1238, 1241-1242; 11RT
3033; 1CT 205; AOB 31-32)
6

The detectives shut the door to appellant’s hospital room
during the hospital interview. They accompanied appellant when
they allowed him to use the bathroom and take smoke breaks.
(5RT 1265; AOB 38)
7

5

out of [his] house.”8 Appellant became “heated” and
armed himself with a rock because he was going to
walk past Vallivero and was “sick of [Vallivero’s]
shit.” Vallivero told appellant, “I’m going to kill you.
You’re going to fucking die.”9 Vallivero punched
appellant. Appellant hit Vallivero with the rock and
struck him approximately three times on the head
with a beer bottle. The bottle broke and Vallivero fell
backwards onto the couch. Appellant picked up a
baseball bat and hit Vallivero with it, causing
Vallivero to fall to the floor.
Appellant continued to hit Vallivero with the bat as
Vallivero lay motionless on the floor. Appellant then
retrieved a knife and tried to stab Vallivero in the chest “to
make sure that he was gone.” The knife would not
penetrate Vallivero’s chest, so appellant stabbed him in the
neck.
After placing Vallivero’s body in the bathtub,
appellant drank Vallivero’s beer and attempted to clean the
house. He also considered fleeing, but ultimately called
Caves and told her what had happened.
Appellant believed that he had to defend
himself because Vallivero “kept punching” him, but

Vallivero was drunk and on meth at the time of the
incident. (11RT 3036; 1CT 211; 2T 469-471, ,475-477; AOB 22-23,
33)
8

Appellant was out on the patio, Vallivero was swearing at
him and threatened to kill him, and when appellant tried to enter
the house, Vallivero blocked his entry and cold cocked him in the
jaw. Appellant was scared. When he responded by attacking
Vallivero, possibly with a rock, and then with a beer bottle, bat,
and knife, he didn’t stop and couldn’t stop; he was “in overdrive.”
He thought Vallivero was going to kill him. (11RT 3036; 2CT 469471, 475-477, 483, 500, 525; AOB 22-24) The incident happened
really fast; appellant feared for his life and defended himself
against Vallivero who kept coming at him. (2CT 468, 474, 485,
489, 491; AOB 24-25)
9

6

acknowledged that Vallivero had struck him only
once or twice. Appellant felt that his conduct was due
to feelings of frustration that “went way overboard”
and added that if he could “take it back [he] would.”
REASONS TO GRANT CERTIORARI
I.

Certiorari Should Be Granted to Determine if
the Police Violated Giese’s Miranda Rights by
Interrogating Him While He was in Custody

A.

Introduction

When the deputies responded to the 911 call to “collect and
control” Giese, they kept him under their control and knew he
was the only suspect in a reported homicide. (5RT 1222- 1223,
1237) While confined, the deputies subjected him to custodial
interrogation without advising him of his constitutional right to
remain silent. Miranda v. Arizona, 384 U.S. 436 (1966) Because
the police significantly deprived Giese of his freedom and then
questioned him, the police should have advised him of his
privilege against self incrimination. Also, because the deputies
violated Giese’s Miranda rights, Giese’s statements should have
been suppressed.
B.

Custodian Interrogation

The Fifth Amendment right against self-incrimination

7

requires the exclusion of statements elicited in a custodial
interrogation unless the suspect was first issued warnings
pursuant to Miranda, 384 U.S. at 444-45. Miranda and its
progeny govern the admissibility of statements made during
custodial interrogation in both state and federal courts. See id.
Miranda safeguards are required when a suspect is (1) "in
custody" and (2) subject to "interrogation" by the government.
Miranda, 384 U.S. at 444. A suspect is in custody when "there is
a 'formal arrest or restraint on freedom of movement' of the
degree associated with a formal arrest." California v. Beheler, 463
U.S. 1121, 1125, 103 S. Ct. 3517, 77 L. Ed. 2d 1275 (1983)
(quoting Oregon v. Mathiason, 429 U.S. 492, 495, 97 S. Ct. 711, 50
L. Ed. 2d 714 (1977) (per curiam)).
An "interrogation" includes both express questioning and
its "functional equivalent." Rhode Island v. Innis, 446 U.S. 291,
301, 100 S. Ct. 1682, 64 L. Ed. 2d 297 (1980). This includes any
words or actions that an officer could reasonably have foreseen
would "elicit an incriminating response." Id.; see also
Pennsylvania v. Muniz, 496 U.S. 582, 600-01, 110 S. Ct. 2638, 110
L. Ed. 2d 528 (1990) (plurality opinion).

8

"[W]hen an individual is taken into custody or otherwise
deprived of his freedom by the authorities in any significant way
and is subjected to questioning, the privilege against selfincrimination is jeopardized. Procedural safeguards must be
employed to protect the privilege...." Miranda, 384 U.S. at 478479.
Incommunicado interrogation in a police dominated
atmosphere generates “inherently compelling pressures which
work to undermine the individual’s will to resist and to compel
him to speak where he would not otherwise do so freely.” Id. at
467.
Miranda safeguards exist, in part, “to ensure that the police
do not coerce or trick captive suspects into confessing.” Berkemer
v. McCarthy, 468 U.S. 420, 433 (1984).
C.

The Deputies Subjected Giese to Custodial
Interrogation in Violation of Miranda

The deputies took Giese, the only suspect, into custody and
confined him until law enforcement could interrogate him. (5RT
1222-1223, 1237) When the deputies arrived, they ordered Giese
to come outside and walk backwards toward them. The deputies

9

then patted Giese down on the street. (5RT 1210, 1212, 12241225)
The watch commander, fire department medics, and an
ambulance responded to the scene. A deputy confined Giese. (5RT
1217, 1225) A deputy accompanied Giese in the ambulance to the
hospital; another deputy followed in a patrol car. (5RT 1217,
1226) Deputies escorted Giese to the emergency room and stayed
with him until Detective Marquez arrived. Then, they stationed
themselves in the hallway. (5RT 1238; 11RT 3033)
Because Giese said Vallivero was dead, the deputies
subjected Giese to prolonged interviews at the hospital and
sheriff’s station to get him to admit his degree of culpability. The
officers gave evasive answers when Giese asked if he was being
“booked.” Detective Paul interrogated Giese at his curtained
bedside, with Detective Marquez and the two deputies stationed
just outside for more than 30 minutes. (5RT 1206)
Because law enforcement knew Giese was the prime
suspect, they confined and extensively interrogated him without
advising him of his constitutional right to remain silent.
Miranda, 384 U.S. at 478-479. Because the police significantly

10

deprived Giese of his freedom and then questioned him to elicit
incriminating responses, the police should have advised him of
his privilege against self incrimination. Giese’s Miranda rights
were violated and his statements should have been suppressed.
II.

Certiorari Should Be Granted Because, by
Excluding Evidence of the Decedent’s Drug Use,
Giese Was Deprived of His Constitutional Right
to Present a Defense

A.

Introduction

The trial court excluded all reference to the decedent’s drug
and alcohol use. (13RT 3611) Giese’s defense that, the evidence
showed that Giese acted out of fear for his life and did not intend
to kill the decedent, had probative value. By excluding the
evidence, which reflected why Giese responded to the decedent,
Giese was deprived of his right to present his defense to the jury.
Giese’s perceptions of the decedent’s actions proved that Giese
acted because he believed the decedent intended to kill him.
B.

A Criminal Defendant Has the Constitutional
Right to Present a Defense

A criminal defendant has the constitutional right to present
a defense, including his version of the facts and witnesses who
will testify on his behalf. Washington v. Texas, 388 U.S. 14, 19

11

(1967) In light of this constitutional standard, the trial court may
not apply evidentiary rules mechanistically to deprive a
defendant of the opportunity to present legitimate exculpatory
evidence. Crane v. Kentucky, 476 U.S. 683, 690-691 (1986);
Chambers v. Mississippi, 410 U.S. 284, 302-303 (1973).
"Whether rooted directly in the Due Process Clause of the
Fourteenth Amendment, [Chambers v Mississippi, 410 U.S. 284],
or in the Compulsory Process or Confrontation clauses of the
Sixth Amendment, [citations], the Constitution guarantees
criminal defendants 'a meaningful opportunity to present a
complete defense.' [Citations.] . . . We break no new ground in
observing that an essential component of procedural fairness is
an opportunity to be heard. [Citations.] . . . In the absence of any
valid state justification, exclusion of this kind of exculpatory
evidence deprives a defendant of the basic right to have the
prosecutor's case encounter and 'survive the crucible of
meaningful adversarial testing.' [Citations.]" Crane, 476 U.S. at
690-691; see also Washington v. Texas, 388 U.S. at 19; Chambers
v. Mississippi, 410 U.S. 284.

12

C.

Methamphetamine Adversely Affects a Person’s
Mind

Methamphetamine use significantly impacts a person’s
mind and body. Methamphetamine use can cause very severe
disturbances in thinking similar to those associated with
paranoid psychosis or manic-depressive illness. People v. Enraca,
53 Cal.4th 735, 745-46 (2012).
“[P]robably the most common characteristic would be … an
irrational fear that someone is trying to hurt you.” A minor threat
may be perceived as a very severe and life-threatening situation.
Methamphetamine use is believed to produce these symptoms by
releasing “adrenalin-type chemicals.” The half-life of
methamphetamine is typically 11 hours. However, the effects of
methamphetamine intoxication may last much longer, depending
on the individual. People v. Enraca, 53 Cal. 4th at 745-46.
Chronic methamphetamine usage can produce a
biochemical impairment of the brain. When this occurs, the
extent of debilitation cannot be determined by the level of
methamphetamine found in the blood, since the effect of the
dosages taken over time is cumulative. A "rage reaction" is

13

essentially a lesser form of amphetamine psychosis in which the
biochemically impaired user reacts irrationally or violently to a
true sensory stimulus. A person experiencing a rage reaction acts
without thought . . .” People v. Valencia, 43 Cal. 4th 268, 278
(2008).
D.

Giese Was Deprived of His Right to Present a
Defense

The decedent’s prior drug use would have corroborated
Giese’s belief about the decedent’s behavior. Evidence of the
decedents past drug use would have solidified and corroborated
Giese’s perception of the decedent and justified Giese’s need to act
in self-defense. The evidence and testimony would have
undermined the prosecution’s case by reinforcing Giese’s
perceptions about the decedent’s dangerousness.
The jury needed to understand Giese’s mind. The jury
needed to understand that Giese acted out of fear for his life.
The jury’s understanding of Giese’s state of mind was vital to his
defenses; excluding the evidence gave the jury an unrealistic
picture of the circumstances surrounding the incident. The trial
court’s exclusion of the evidence about the decedent’s drug use

14

and how it affected Giese’s perceptions of the decedent deprived
Giese of due process, a fair trial, and the right to prepare and
present a defense. U.S. Const. amends. V, VI, XIV.
III.

Certiorari Should Be Granted Because the
Prosecutor Committed Prejudicial Misconduct
by Misstating the Law During Closing
Argument

A.

Introduction

The prosecutor misstated the law several times in closing
argument. The prosecutor improperly argues that motive equals
murder, that hiding evidence meant Giese committed a murder,
that self-defense required that Giese believed he was going to be
killed, that what the neighbors believed constituted the “average
person” standard for provocation, that Giese committed murder if
the jury did not find imperfect self-defense, that premeditation
was equivalent to deciding whether to stop at a yellow light, that
to justify the killing, Giese would have had to suffer an
“annihilated . . . jaw,” that reasonable doubt equated to a
reasonable decision.
The prosecutor’s repeated misstatements of law in closing
argument constituted prejudicial misconduct and deprived Giese

15

of due process and a fair trial. Berger v. United States, 295 U.S.
78, 88, 55 S. Ct. 629, 633 (1935)
B.

The Prosecutor Must Not Commit Misconduct

“The United States Attorney is the representative not of an
ordinary party to a controversy, but of a sovereignty whose
obligation to govern impartially is as compelling as its obligation
to govern at all; and whose interest, therefore, in a criminal
prosecution is not that it shall win a case, but that justice shall be
done. As such, he is in a peculiar and very definite sense the
servant of the law, the twofold aim of which is that guilt shall not
escape or innocence suffer. He may prosecute with earnestness
and vigor -- indeed, he should do so. But, while he may strike
hard blows, he is not at liberty to strike foul ones. It is as much
his duty to refrain from improper methods calculated to produce a
wrongful conviction as it is to use every legitimate means to bring
about a just one.” Berger v. United States, 295 U.S. at 88.
“It is fair to say that the average jury, in a greater or less
degree, has confidence that these obligations, which so plainly
rest upon the prosecuting attorney, will be faithfully observed.
Consequently, improper suggestions, insinuations and, especially,

16

assertions of personal knowledge are apt to carry much weight
against the accused when they should properly carry none.” Id.
C.

The Prosecutor Committed Prejudicial
Misconduct

The prosecutor engaged in massive, pervasive and
consequential conduct:
1.

The Prosecutor Improperly Argued That Motive
Means First Degree Murder

The prosecutor argued: “There is clear motive in this case,
the eviction.” Giese was “sick of . . . [Vallivero] trying to ruin his
life. Walter was verbally abusive. Claims that he basically had to
live out of his car because of this. He claims he got into debt over
this. He was in anxiety because of this guy. And when you heard
and saw him on that tape, you could feel the anger coming back to
him. That anger that you saw is proof of motive, and if there is
motive, there’s first degree murder because it came to him before.”
(18RT 5113) (Italics added.)
The prosecutor misstated the law. Motive does not turn a
homicide into first degree murder. It is not an element of murder
or of premeditated murder ( People v. Hillhouse, 27 Cal.4th 469,
503-504 (2002)) and it does not transform a homicide to first

17

degree murder. The prosecutor’s argument that “if there is
motive, there’s first degree murder” (18RT 5113) misstated the
law and constituted misconduct. People v. Hill, 17 Cal.4th 800,
830 (1998).
2.

The Prosecutor Improperly Argued That Giese
Committed Murder Because He Hid Evidence

The prosecutor argued that Giese’s “hiding evidence” by
cleaning up the crime scene after killing Vallivero, “as the law
tells you, that means he in his own mind knows he is guilty of
murder.” (18RT 5114) This misstated the law.
Although trying to hide evidence may show consciousness of
guilt of some homicide charge, where the theory of defense was
that Giese was not guilty of premeditated murder, but acted in
self-defense or was guilty only of the lesser crime of voluntary
manslaughter, the prosecutor’s argument misstated the law.
Giese’s conduct after Vallivero was dead does not mean he knew
he was guilty of murder. People v. Yeoman, 31 Cal.4th 93, 131
(2003).

18

3.

The Prosecutor Improperly Argued That Self-defense
Requires That Giese Reasonably Believed He Was
Going to Be Killed

The prosecutor argued: “If you find justifiable homicide as a
complete defense to murder, you must find the defendant
reasonably believed he was in imminent danger of being killed,
right then and there, which obviously he wasn’t.” (18RT 5115)
Further: “[T]he defendant acted in imperfect self-defense if he
actually believed he was in imminent danger of being killed . . . ”
(18RT 5120) (Italics added.)
The prosecutor misstated the law. The fear must be of
Imminent harm; the defendant need not fear imminent death.
“The defendant’s fear must be of imminent danger to life or great
bodily injury.” People v. Humphrey, 13 Cal.4th 1073, 1082 (1996)
(perfect self-defense); In re Christian S., 7 Cal.4th 768, 773
(1994).
4.

The Prosecutor Improperly Misstated the “Average
Person” Standard for Provocation

The prosecutor stated provocation is what would cause “a
person of average disposition to act rashly and without due
deliberation,” which could be tested by what Giese’s neighbors,

19

Kristy Tolbert and Josh Demolar did in response to the ongoing
conflict between Giese and Vallivero. Tolbert “heard it every day”
and “was numb to it.” Neither Tolbert nor Demolar thought
enough about it to call 911. Ergo, “the average person would not
have acted rashly and without due deliberation.” (18RT 51175118)
The prosecutor misstated the standard for provocation,
which is not how a threatened person’s unthreatened neighbors
would react. Rather, “[t]he focus is on the provocation – the
surrounding circumstances – and whether it was sufficient to
cause a reasonable person to act rashly.” People v. Najera, 138
Cal.App.4th 212, 224 (2006). “If an ordinary person of average
disposition, under the same circumstances, would also react in
this manner, the provocation is adequate.” People v. Wright, 242
Cal.App.4th 1461, 1482 (2015), citing People v. Beltran 56 Cal.4th
935, 950 (2013); emphasis added.) Telling the jury that
provocation should be judged by how Giese’s neighbors reacted to
overhearing the ongoing arguments misstated the law.

20

5.

The Prosecutor Improperly Urged the Jury to Find
Murder if the Jury did not Find imperfect self-defense
(18RT 5120)

The prosecutor erroneously stated, “If you find there is no
imperfect self-defense, then it’s murder.” (18RT 5120) Although
perfect self-defense requires an actual and objectively reasonable
belief in the need to defend and imperfect self-defense allows that
belief to be objectively unreasonable People v. Humphrey, 13
Cal.4th at 1082, the jury still could find Giese guilty of a lesser
included offense to murder, i.e., heat of passion voluntary
manslaughter, a separate legal theory and separate lesser
included offense from perfect and imperfect self-defense. See,
People v. Rios, 23 Cal.4th 450, 454 (2000).
Unreasonable or imperfect self-defense is based on a
defendant’s acts under an actual but unreasonable belief in the
need to defend himself against imminent peril of death or great
bodily harm. In re Christian S., 7 Cal.4th at 779, fn. 3. A heat of
passion killing, on the other hand, does not involve an
unreasonable belief in the need to defend oneself, but rather,
actions in response to objectively reasonable provocation. People
v. Wright, 242 Cal.App.4th at 1481. Telling the jury that if there

21

is no imperfect self-defense, then it is murder, misstated the law.
6.

The Prosecutor Improperly Misstated the Law on
Premeditation

The prosecutor likened premeditation to the “every day,” of
driving through a yellow light. The prosecutor argued
premeditation concerns “the extent of the reflection. And in jury
selection we talked about the idea of coming to a yellow light,
which we do every day. And in that instant, you are looking to see
if someone is coming the other way, you are looking to your side,
you are looking to the other side, you are checking your speed,
you are checking to see how long that light was yellow. And in
that instant, you’ve carefully weighed and considered all of your
options and come to a decision.” (18RT 5125)
The prosecutor misstated the law because premeditation
and deliberate murder differs from an “every day” decision such
as deciding to go through a yellow light; it requires “substantially
more reflection” than that type of everyday decision. People v.
Boatman, 221 Cal.App.4th 1253, 1264 (2014)

22

7.

The Prosecutor Improperly Argued That to Justify the
Killing, Giese Would Have Had to Suffer an
“Annihilated . . . Jaw.” (18RT 5192)

In rebuttal, the prosecutor improperly argued that to justify
the killing, Giese would have had to suffer an “annihilated his
jaw.” (18RT 5192) None of Giese’s defenses – perfect and
imperfect self-defense and heat of passion voluntary
manslaughter – require a person to wait until they suffer
“annihilating” injuries to respond with force. The defendant must
act from fear of “imminent” harm, that is, harm that is “apparent,
present, immediate, and must be instantly dealt with.”
People v. Lopez, 199 Cal.App.4th 1297, 1304 (2011). The
defendant must face “imminent” harm and is not required to wait
until he actually suffers harm of “annihilating” injuries. The
prosecutor misstated the law.
8.

The Prosecutor Misstated the Reasonable Doubt
Standard of Proof

The prosecutor argued. “Reasonable doubt, it’s not beyond
all doubt . . . It’s the same standard used even in traffic court.
What it means is if defense scenario is possible, sure possible, but
still unreasonable, the law says reject that which is possible but

23

unreasonable . . . If what the People are saying is reasonable and
defense says it’s possible but unreasonable, that’s a guilty
verdict.” (18RT 5194)
The argument misstated the law. While the prosecution can
argue to the jury that the defense evidence or theory of the case is
unreasonable or unbelievable, it is prosecutorial misconduct to
argue the beyond a reasonable doubt standard is met if the jury
could find defendant guilty based on a “reasonable” account of the
evidence. People v. Centeno, 60 Cal.4th 659, 673 (2014).
D.

The Prosecutor’s Multiple Misstatements of
Law Constituted Prosecutorial Misconduct

A prosecutor commits misconduct by consistently
misstating the applicable law. People v. Marshall, 13 Cal.4th 799,
831 (1996); People v. Boyette, 29 Cal.4th 381, 426 (2002). The
prosecutor’s multiple misstatements of law throughout closing
and rebuttal argument, unfairly urged the jury to convict Giese of
first degree murder.
E.

Defense Counsel Rendered Ineffective
Assistance by Failing to Object to the
Prosecutorial Misconduct

Despite the prosecutor’s multiple instances of misconduct,

24

defense counsel failed to object and ask the court to admonish the
prosecutor. Centeno, 60 Cal.4th at 663-664; People v. Fosselman,
33 Cal.3d 572, 584 (1983). By failing to object, trial counsel’s
performance fell below professional norms, and prejudice from
counsel’s deficiency such that a reasonable probability exists that,
but for trial counsel’s error, the result would have been different.
Strickland v. Washington, 466 U.S. 668, 693-694 (1984).
CONCLUSION
Giese respectfully requests that certiorari be granted.
DATED: September 21, 2020
Respectfully submitted,
FAY ARFA, A LAW CORPORATION

/s Fay Arfa
___________________________
Fay Arfa, Attorney for Appellant

25

APPENDIX

Filed 2/26/20 P. v. Giese CA2/6

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SIX
THE PEOPLE,
Plaintiff and Respondent,

2d Crim. No. B292208
(Super. Ct. No. 15F-10827)
(San Luis Obispo County)

v.
CHARLES CHAD GIESE,
Defendant and Appellant.

Charles Chad Giese appeals the judgment entered after a
jury convicted him of willful, deliberate, and premeditated
murder (Pen. Code,1 §§ 187, 189) and found true allegations that
in committing the murder he used two deadly weapons, i.e., a
baseball bat and a knife (§ 12022, subd. (b)(1)). The trial court
sentenced him to 26 years to life in state prison and ordered him
to pay fines and fees including a $7,800 restitution fine (§ 1202.4,
subd. (b)), a $30 criminal conviction assessment (Gov. Code,
All statutory references are to the Penal Code unless
otherwise stated.
1

APPENDIX A

§ 70373), and a $40 court operations assessment (§ 1465.8, subd.
(a)(1)). Appellant contends (1) his extrajudicial statements to law
enforcement were admitted against him in violation of Miranda
v. Arizona (1966) 384 U.S. 436 [16 L.Ed.2d 694] (Miranda); (2)
the evidence is insufficient to support his conviction of first
degree murder; (3) the court erred in excluding evidence of the
victim’s drug use; (4) the jury was erroneously instructed on the
right of self-defense available to a person who starts a fight or
engages in mutual combat; (5) the prosecutor committed
misconduct during closing argument, and defense counsel
provided ineffective assistance by failing to object; and (6) the
cumulative effect of the alleged errors compels the reversal of his
conviction. Appellant also contends the court erred in imposing
the criminal conviction and court operations assessments without
first determining his ability to pay those assessments, as
contemplated in People v. Dueñas (2019) 30 Cal.App.5th 1157
(Dueñas). We affirm.
STATEMENT OF FACTS
In early 2015,2 appellant began renting a room in Walter
Vallivero’s mobile home. Shortly after appellant moved in, the
manager of the mobile home park began receiving complaints
from other residents about frequent loud arguments at
Vallivero’s home. There were also complaints that appellant had
urinated in public and was acting strangely. Several residents
requested that appellant be ordered to leave the mobile home
park. Shawn Reed, the owner of the park, sent Vallivero a letter
outlining the complaints regarding appellant and stating that he
would be asked to leave the park if his inappropriate behavior
continued.
2

All date references are to the year 2015.

2

APPENDIX A

On September 5, the police were called to Vallivero’s home
regarding a physical altercation between appellant and Vallivero.
Appellant told the police that he and Vallivero were arguing
about trash in the kitchen when Vallivero reached into the
cushion on the couch and pulled out a BB gun. Appellant
grabbed the hand that was holding the gun and repeatedly
punched Vallivero in the face. Vallivero told the responding
officers that appellant repeatedly punched him in the face after
he confronted appellant about the messy kitchen. According to
Vallivero, whose face was bloody and swollen, it was appellant
who grabbed the BB gun from the couch cushions before running
outside.
A few days later, Reed sent Vallivero a letter referring to
the recent incident and revoking Vallivero’s right to have
appellant as a renter. On September 17, Reed sent Vallivero
another letter informing him that appellant had 30 days to
vacate the premises. Ten days later, Reed sent Vallivero a letter
informing him that appellant had been observed recklessly
driving in the mobile home park while intoxicated. Vallivero
subsequently told Reed “he was having a hard time getting an
agreement with [appellant] to vacate the park.” On October 7,
appellant was formally served with notice of the eviction
proceedings against him.
On the morning of November 16, appellant’s mother
Brenda Caves called 911 and reported that appellant had hit his
roommate with a baseball bat, that the roommate did not appear
to be breathing, and that appellant had put him in the bathtub.
San Luis Obispo County Sheriff’s Deputies Dustin Phillips and
Jason Hall responded to Caves’s house. Appellant was outside
the house with Caves and his hand was bandaged. Appellant

3

APPENDIX A

requested medical assistance and Deputy Hall rode with him in
an ambulance to the hospital. While they were in the ambulance,
appellant said he cut his finger on a glass bottle and that his jaw
hurt because he had been hit with a fist.
Vallivero’s body was found in the bathtub. He had a
laceration to his left arm, a deep incision wound on the back of
his neck, lacerations and fractures along the left side of his head,
stab wounds to his back, and numerous wounds to his head and
body that were consistent with blunt force trauma. Vallivero also
had defensive wounds on his forearms, hands, and wrists, and
bruises on the right side of his torso. The cause of death was
blunt force injuries to the head. Toxicology results showed that
Vallivero had a 0.19 blood alcohol level; tests for controlled
substances were negative.
Appellant was interviewed at the hospital and later at the
sheriff’s station. He said he had just finished cleaning the
kitchen when Vallivero arrived home after buying beer and told
him to “get the fuck out of [his] house.” Appellant became
“heated” and armed himself with a rock because he was going to
walk past Vallivero and was “sick of [Vallivero’s] shit.” Vallivero
told appellant, “I’m going to kill you. You’re going to fucking die.”
Vallivero punched appellant. Appellant hit Vallivero with the
rock and struck him approximately three times on the head with
a beer bottle. The bottle broke and Vallivero fell backwards onto
the couch. Appellant picked up a baseball bat and hit Vallivero
with it, causing Vallivero to fall to the floor.
Appellant continued to hit Vallivero with the bat as
Vallivero lay motionless on the floor. Appellant then retrieved a
knife and tried to stab Vallivero in the chest “to make sure that

4

APPENDIX A

he was gone.” The knife would not penetrate Vallivero’s chest, so
appellant stabbed him in the neck.
After placing Vallivero’s body in the bathtub, appellant
drank Vallivero’s beer and attempted to clean the house. He also
considered fleeing, but ultimately called Caves and told her what
had happened.
Appellant believed that he had to defend himself because
Vallivero “kept punching” him, but acknowledged that Vallivero
had struck him only once or twice. Appellant felt that his
conduct was due to feelings of frustration that “went way
overboard” and added that if he could “take it back [he] would.”
DISCUSSION
Miranda Motion
Appellant contends the trial court erred in denying his
motion to exclude the statements he made at the hospital and
sheriff’s station on the ground they were obtained in violation of
Miranda. We are not persuaded.
Miranda provides that a person questioned by law
enforcement after being “taken into custody” must first be
warned that he or she has the right to remain silent, that any
statements that he or she makes may be used against the person,
and that he or she has a right to the presence of retained or
appointed counsel. (Miranda, supra, 384 U.S. at p. 444.) For the
Miranda rule to apply, there must be an interrogation by the
police while the suspect is in police custody. (Id. at p. 478.)
Whether a person is in custody “depends on the objective
circumstances of the interrogation, not on the subjective views
harbored by either the interrogating officers or the person being
questioned.” (Stansbury v. California (1994) 511 U.S. 318, 323
[128 L.Ed.2d 293].) “The question whether [the] defendant was

5

APPENDIX A

in custody for Miranda purposes is a mixed question of law and
fact.” (People v. Ochoa (1998) 19 Cal.4th 353, 401.) “[A]n
appellate court must ‘apply a deferential substantial evidence
standard’ [citation] to the trial court’s factual findings regarding
the circumstances surrounding the interrogation, and it must
independently decide whether, given those circumstances, ‘a
reasonable person in [the] defendant’s position would have felt
free to end the questioning and leave’ [citation].” (People v.
Leonard (2007) 40 Cal.4th 1370, 1400.)
“To determine whether an interrogation is custodial we
consider a number of circumstances, including: ‘whether contact
with law enforcement was initiated by the police or the person
interrogated, and if by the police, whether the person voluntarily
agreed to an interview; whether the express purpose of the
interview was to question the person as a witness or a suspect;
where the interview took place; whether police informed the
person that he or she was under arrest or in custody; whether
they informed the person that he or she was free to terminate the
interview and leave at any time and/or whether the person’s
conduct indicated an awareness of such freedom; whether there
were restrictions on the person’s freedom of movement during the
interview; how long the interrogation lasted; how many police
officers participated; whether they dominated and controlled the
course of the interrogation; whether they manifested a belief that
the person was culpable and they had evidence to prove it;
whether the police were aggressive, confrontational, and/or
accusatory; whether the police used interrogation techniques to
pressure the suspect; and whether the person was arrested at the
end of the interrogation.’” (People v. Torres (2018) 25 Cal.App.5th
162, 172-173.)

6

APPENDIX A

At the hearing on appellant’s suppression motion, Deputy
Hall testified that appellant was subjected to a patdown search
for the deputies’ safety when they first encountered him at
Caves’s house. Appellant was never handcuffed and Deputy Hall
never asked him any questions about Vallivero’s killing. Deputy
Hall rode with appellant in the ambulance to the hospital to
ensure the paramedics’ safety while Deputy Phillips followed in
the patrol car.
Detective David Marquez arrived at the hospital and
introduced himself to appellant as he lay in a bed in the
emergency room. Detective Marquez asked appellant if he
needed anything and told him he would speak to him after he
was treated.
Detective Nathan Paul subsequently arrived and
introduced himself to appellant. Detective Paul told appellant he
was there to find out what had happened and asked if appellant
was willing to accompany him to the sheriff’s station to talk.
Appellant said “okay” then added, “I don’t know my rights. . . . I
defended myself.” Detective Paul responded “you’re not under
arrest. If you defended yourself, that’s what I want to hear
about.” Appellant replied: “My mom’s working on an attorney
. . . and [she] told me not to talk to anyone cause I could
incriminate myself . . . . I don’t know my rights, so um, I was in a
fight and I defended myself and – and it got really bad and then I
didn’t know what to do after that point. I tried to clean up the
mess.” Appellant proceeded to provide a detailed account of what
had happened. At one point during the interview, appellant was
allowed to use the bathroom.
After appellant had been treated, Detective Paul asked if
he was still willing to accompany him to the sheriff’s station for

7

APPENDIX A

further questioning. Appellant asked if he could smoke a
cigarette after they arrived at the sheriff’s station and the
detective replied, “When we get there we’ll let you . . . stand
outside and . . . smoke as many as you need.” Appellant then
asked, “I know you’ve probably gotta book me, right?” The
detective replied in the negative and told appellant he was not
being handcuffed and was a “free walking man.”
After they arrived at the sheriff’s station, appellant was
allowed to smoke a cigarette outside and use a restroom without
any supervision. Before conducting the interview, Detective Paul
confirmed with appellant that he was there voluntarily and
reiterated he was not under arrest. During the interview,
appellant took at least three cigarette breaks and a bathroom
break. Near the end of the interview, appellant was told he was
being detained for killing Vallivero.
In denying appellant’s suppression motion, the court found
that appellant had voluntarily agreed to be interviewed; that
there was no custodial interrogation because a reasonable person
in appellant’s position would have felt free to terminate the
interview until the point he was told he was being detained; and
that appellant had never unequivocally indicated that he wanted
an attorney. The court further found that law enforcement had
not dominated or controlled the course of the interrogation and
that appellant had “set the pace” of the interview.
The court did not err in denying appellant’s motion. At
both the hospital and the sheriff’s station, appellant was free of
physical restraints and was advised he was not under arrest and
was free to leave. Moreover, no weapons were displayed and
there is nothing to indicate that the deputies and detectives who
spoke to him were aggressive or accusatory or employed special

8

APPENDIX A

techniques to pressure him. On the contrary, every effort was
made to ensure that appellant was comfortable and that his
needs were accommodated. The court thus correctly found, under
the totality of the circumstances, that appellant’s statements at
the hospital and the sheriff’s station were not the result of a
custodial interrogation. (People v. Leonard, supra, 40 Cal.4th at
p. 1400.) The cases appellant cites in support of his claim are
plainly inapposite.3
To the extent appellant claims that his statements were
involuntary because the detectives exploited his mental illness
and unduly prolonged his interview at the sheriff’s station, those
were not raised below and are thus forfeited. In any event,
appellant fails to establish that the detectives who interviewed
him engaged in coercive conduct. (See People v. Bradford (1997)
14 Cal.4th 1005, 1041 [recognizing that “[c]oercive police activity
is a necessary predicate” to a finding that a confession was
involuntary].) Moreover, the identified circumstances that
allegedly rendered appellant’s statements involuntary took place
at the sheriff’s station. Because appellant had already provided a
detailed account of the incident while he was at the hospital, any
error in admitting the statements he subsequently made at the
sheriff’s station was harmless beyond a reasonable doubt.
(Chapman v. California (1967) 386 U.S. 18, 24 [17 L.Ed.2d 705];
People v. Case (2018) 5 Cal.5th 1, 22 [Miranda violations subject
to harmless error standard of review set forth in Chapman].)
Appellant also fails to inform us that one of the cases
upon which he relies, People v. Boyer (1989) 48 Cal.3d 247, has
been disapproved to the extent it “may be read to suggest that an
officer’s subjective focus of suspicion is an independently relevant
factor in establishing custody for the purposes of Miranda . . . .”
(People v. Stansbury (1995) 9 Cal.4th 824, 830, fn. 1.)
3

9

APPENDIX A

Sufficiency of the Evidence
Appellant claims that his murder conviction must be
reversed because the evidence is insufficient to prove he killed
Vallivero with premeditation and deliberation. In reviewing this
claim, we “must review the whole record in the light most
favorable to the judgment to determine whether it contains
substantial evidence—i.e., evidence that is credible and of solid
value—from which a reasonable trier of fact could have found the
defendant guilty beyond a reasonable doubt.” (People v. Nguyen
(2015) 61 Cal.4th 1015, 1054-1055, internal quotation marks
omitted.) We “presume in support of the judgment the existence
of every fact the jury could reasonably have deduced from the
evidence.” (People v. Zamudio (2008) 43 Cal.4th 327, 357.) “A
reversal for insufficient evidence ‘is unwarranted unless it
appears “that upon no hypothesis whatever is there sufficient
substantial evidence to support’” the jury’s verdict.” (Ibid.)
The “mental state [for first-degree murder] is uniquely
subjective and personal. It requires more than a showing of
intent to kill; the killer must act deliberately, carefully weighing
the considerations for and against a choice to kill before he or she
completes the acts that caused the death.” (People v. Chiu (2014)
59 Cal.4th 155, 166.) The process of premeditation and
deliberation does not require any extended period of time.
(People v. Watkins (2012) 55 Cal.4th 999, 1026.) The test is one of
the extent of reflection rather than the duration of time. (Ibid.)
Our Supreme Court has identified three categories of
evidence relevant to establishing premeditation and deliberation.
(People v. Anderson (1968) 70 Cal.2d 15, 26-27; People v. Brooks
(2017) 3 Cal.5th 1, 58-59; People v. Houston (2012) 54 Cal.4th
1186, 1216.) The categories include events occurring before the

10

APPENDIX A

killing that indicate planning, motive to kill, and manner of
killing that reflects a preconceived design to kill. (Anderson, at
pp. 26-27.) The factors are neither exclusive nor invariably
determinative. (Brooks, at p. 59; Houston, at p. 1216.) Evidence
of each category is not required to affirm a judgment of first
degree murder. (People v. Mejia (2012) 211 Cal.App.4th 586,
605.) The factors are merely a guide in determining whether the
evidence supports an inference that the killing occurred as a
result of preexisting reflection rather than a rash impulse.
(Brooks, at p. 59.)
Sufficient evidence supports appellant’s conviction of
attempted premeditated and deliberate murder. Appellant’s
arguments to the contrary fail to acknowledge the standard of
review, which compels us to view the evidence in the light most
favorable to the judgment. (People v. Nguyen, supra, 61 Cal.4th
at pp. 1054-1055.)
Prior to the killing, appellant armed himself with a rock.
After Vallivero allegedly punched appellant, appellant hit him on
the head with the rock and proceeded to break a beer bottle over
his head, causing him to fall on the couch. Appellant then armed
himself with a baseball bat and repeatedly hit Vallivero in the
head as he lay motionless on the ground. To make sure Vallivero
was dead, appellant retrieved a knife and stabbed him in the
neck. The circumstances and manner of the killing amply
support the jury’s findings of premeditation and deliberation.
(People v. Anderson, supra, 70 Cal.2d at pp. 26-27; see also People
v. Perez (1992) 2 Cal.4th 1117, 1128 [recognizing that defendant’s
use of a second knife to inflict post mortem wounds, when
considered in conjunction with the manner of killing, “could
easily have led the jury to infer premeditation and

11

APPENDIX A

deliberation”].) Appellant also expressed a motive for the killing
by acknowledging he was angry about being evicted, was “sick of
[Vallivero’s] shit,” and wanted him “gone.” Appellant’s claim of
insufficient evidence thus fails.
Evidence of Vallivero’s Drug Use
Appellant also contends the court abused its discretion and
violated his due process rights by excluding evidence of
Vallivero’s drug use. We disagree.
Only relevant evidence is admissible. (Evid. Code, § 350.)
Evidence is relevant if it has “any tendency in reason to prove or
disprove any disputed fact that is of consequence to the
determination of the action.” (Evid. Code, § 210.) A trial court
has discretion to exclude relevant evidence when its prejudicial
effect substantially outweighs its probative value. (Evid. Code,
§ 352.) Evidentiary rulings are reviewed for abuse of discretion,
and a court’s decision will be upheld unless it exceeds the bounds
of reason. (People v. Williams (1997) 16 Cal.4th 153, 196-197; see
also People v. Stitely (2005) 35 Cal.4th 514, 550.)
When appellant was interviewed, he stated that Vallivero
used methamphetamine and was “drinking and on meth” when
the crime occurred. Prior to trial, the prosecution moved in
limine to exclude any reference to Vallivero’s methamphetamine
and cocaine use as irrelevant and substantially more prejudicial
than probative under Evidence Code section 352. The court
granted the motion after finding that the evidence was both
irrelevant and unduly prejudicial because no methamphetamine,
cocaine, or other illicit drugs were found in Vallivero’s system
after his death. Later in the proceedings, defense counsel moved
to admit Vallivero’s medical records showing that Vallivero had
admitted using methamphetamine and had been diagnosed as a

12

APPENDIX A

chronic user of the drug. The court denied the motion and
reiterated its prior ruling that evidence of Vallivero’s
methamphetamine use was unduly prejudicial under Evidence
Code section 352.
The court did not err. Appellant contends that “his
statements about how he personally experienced Vallivero to act
unreasonably and violently when Vallivero was using or high on
meth were relevant to show the reasonableness of appellant’s fear
and resulting actions.” It is undisputed, however, that Vallivero
was not under the influence of methamphetamine or any other
illicit drug when he was killed. Moreover, it is not reasonably
probable that appellant would have achieved a more favorable
result had the challenged evidence been admitted. As the People
aptly put it, “appellant’s alleged belief that Vallivero was under
the influence of methamphetamine, as opposed to just alcohol,
had minimal or no probative value to any claim of self-defense.”
Accordingly, any error in excluding evidence of Vallivero’s drug
use was harmless. (People v. Watson (1956) 46 Cal.2d 818, 836;
People v. Mullens (2004) 119 Cal.App.4th 648, 659 [error in
excluding evidence under Evidence Code section 352 reviewed
under the harmless error standard set forth in Watson].)
Mutual Combat/Initial Aggressor (CALCRIM No. 3471)
The trial court instructed the jury on the doctrines of selfdefense (CALCRIM No. 505) and imperfect self-defense
(CALCRIM No. 571). Over appellant’s objection, the jury was
also instructed on the limitations of the right of self-defense to
one who engaged in mutual combat or acted as the initial
aggressor, as provided in CALCRIM No. 3471.4 Appellant
The jury was instructed as follows: “A person who
engages in mutual combat or who starts a fight has a right to
4

13

APPENDIX A

contends the court committed prejudicial error and violated his
federal constitutional rights by giving the mutual combat
instruction. This contention lacks merit.
“It is error to give an instruction which, while correctly
stating a principle of law, has no application to the facts of the
case.” (People v. Guiton (1993) 4 Cal.4th 1116, 1129.) Error in
giving an inapplicable instruction is one of state law subject to
the Watson test for prejudice, under which reversal is required if
it is reasonably probable the defendant would have obtained a
more favorable result in the absence of the error. (Id. at p. 1130;
Watson, supra, 46 Cal.2d at p. 836.)
The court did not err in giving the challenged instruction.
There was evidence from which the jury could have found that
appellant not only engaged in mutual combat with Vallivero, but
also acted as the initial aggressor. Although appellant offers his

self-defense only if: [¶] 1. He actually and in good faith tried to
stop fighting; [¶] 2. He indicated, by word or by conduct, to his
opponent, in a way that a reasonable person would understand,
that he wanted to stop fighting and that he had stopped fighting;
[¶] AND [¶] 3. He gave his opponent a chance to stop fighting.
[¶] If the defendant meets these requirements, he then had a
right to self-defense if the opponent continued to fight. [¶]
However, if the defendant used only non-deadly force, and the
opponent responded with such sudden and deadly force that the
defendant could not withdraw from the fight, then the defendant
had the right to defend himself with deadly force and was not
required to try to stop fighting, or communicate the desire to stop
to the opponent, or give the opponent a chance to stop fighting.
[¶] A fight is mutual combat when it began or continued by
mutual consent or agreement. That agreement may be expressly
stated or implied and must occur before the claim of self-defense
arose.” (Italics omitted.)

14

APPENDIX A

self-serving assertion that Vallivero initiated the incident by
punching him, the jury was entitled to reject that assertion.
According to Vallivero, appellant had been the initial aggressor of
a prior fight between the two regarding the cleanliness of the
kitchen. Moreover, appellant admitted that he approached
Vallivero with a rock in his hand because he “knew” the two of
them were going to fight. The jury could thus reasonably find
that appellant intended to fight with Vallivero before Vallivero
allegedly punched him.
Even if the instruction should not have been given, the
error would be harmless. The jury was separately instructed
pursuant to CALCRIM No. 3474 that “[t]he right to use force in
self-defense continues only as long as the danger exists or
reasonably appears to exist. When the attacker withdraws or no
longer appears capable of inflicting any injury, then the right to
use force ends.” Appellant continued to use deadly force against
Vallivero well after he had rendered Vallivero incapable of
inflicting any injury upon him. No reasonable juror thus would
have found that appellant killed Vallivero in self-defense or
imperfect self-defense. (People v. Gleghorn (1987) 193 Cal.App.3d
196, 201-202.)
The jury was also instructed pursuant to CALCRIM No.
200 that “[s]ome of the[] instructions may not apply, depending
on your findings about the facts of the case.” Because of this
instruction, “the jury is presumed to disregard an instruction if
the jury finds the evidence does not support its application.”
(People v. Frandsen (2011) 196 Cal.App.4th 266, 278; People v.
Olguin (1994) 31 Cal.App.4th 1355, 1381.) Because appellant
does not rebut this presumption or otherwise demonstrate a
reasonable probability that he would have achieved a more

15

APPENDIX A

favorable result had the challenged instruction not been given,
his claim fails. (People v. Guiton, supra, 4 Cal.4th at p. 1130.)
Prosecutorial Misconduct; Ineffective Assistance of Counsel
For the first time on appeal, appellant contends the
prosecutor committed misconduct by misstating the law eight
times in his closing argument. Anticipating our conclusion that
these claims are forfeited because defense counsel did not object
to any of the alleged misstatements, appellant alternatively
contends that counsel’s failure to object amounts to ineffective
assistance.
Prosecutorial misconduct exists “‘under state law only if it
involves “‘the use of deceptive or reprehensible methods to
attempt to persuade either the court or the jury.’”’” (People v.
Earp (1999) 20 Cal.4th 826, 858.) In more extreme cases, a
defendant’s federal due process rights are violated when a
prosecutor’s improper remarks “‘“‘infect[] the trial with
unfairness,’”’” making it fundamentally unfair. (Ibid.) “‘“To
preserve a claim of prosecutorial misconduct for appeal, a
defendant must make a timely and specific objection and ask the
trial court to admonish the jury to disregard the improper
argument.”’ [Citation.] A court will excuse a defendant’s failure
to object only if an objection would have been futile or if an
admonition would not have cured the harm caused by the
misconduct. [Citation.]” (People v. Jackson (2016) 1 Cal.5th 269,
349.)
Here, defense counsel did not object to the prosecutor’s
alleged misstatements and made no requests that the jury be
admonished. Moreover, appellant has not established that
objections or admonition would have been futile. Because the
alleged misconduct consisted of purported misstatements of law,

16

APPENDIX A

they could have easily been corrected by the trial court with an
admonition. (People v. Centeno (2014) 60 Cal.4th 659, 674
(Centeno).) Appellant’s claims of prosecutorial misconduct are
thus forfeited. (Ibid; People v. Jackson, supra, 1 Cal.5th at
p. 349.)
We also reject appellant’s claims that trial counsel provided
ineffective assistance by failing to object. “A party claiming
ineffective assistance must first demonstrate that his counsel’s
performance was deficient. [Citations.] In reviewing counsel’s
performance, we ‘exercise deferential scrutiny.’ [Citations.] To
that end, it is up to [appellant] to show his counsel’s performance
was deficient because his ‘“representation fell below an objective
standard of reasonableness . . . under prevailing professional
norms.”’ [Citation.] Second, even after a party demonstrates
ineffective assistance, he must also show he has been prejudiced,
i.e., ‘that there is a reasonable probability that, but for his
counsel’s unprofessional errors, the result of the proceeding
would have been different.’ [Citation.] If [appellant’s] showing as
to either component is insufficient, the claim fails. [Citation.]
Accordingly, if he cannot show prejudice, we may reject his claim
of ineffective assistance, and need not address the adequacy of
trial counsel’s performance. [Citations.]” (People v. King (2010)
183 Cal.App.4th 1281, 1298; Strickland v. Washington (1984) 466
U.S. 668, 688, 694 [80 L.Ed.2d 674].)
Moreover, “[t]he appellate record . . . rarely shows that the
failure to object was the result of counsel’s incompetence;
generally, such claims are more appropriately litigated on habeas
corpus, which allows for an evidentiary hearing where the
reasons for defense counsel’s actions or omissions can be
explored.” (People v. Lopez (2008) 42 Cal.4th 960, 966.) “‘[T]he

17

APPENDIX A

decision facing counsel in the midst of trial over whether to object
to comments made by the prosecutor in closing argument is a
highly tactical one’ [citations], and ‘a mere failure to object to
evidence or argument seldom establishes counsel’s incompetence’
[citation].” (Centeno, supra, 60 Cal.4th at p. 675.)
Appellant contends that during closing argument the
prosecutor misstated the law by asserting (1) that “if there is
motive, there’s first degree murder”; (2) that appellant’s efforts to
clean up the crime scene after he killed Vallivero “means [that]
he in his own mind knows he is guilty of murder”; (3) that
appellant could not be found to have acted in self-defense unless
he “reasonably believed he was in imminent danger of being
killed”; (4) that the provocation element of voluntary
manslaughter based on sudden quarrel or heat of passion was not
established by evidence that Vallivero had previously threatened
appellant, because two neighbors who allegedly heard Vallivero
make such threats were not concerned enough to call the police;
(5) that “if you find there is no imperfect self-defense, then it’s
murder”; (6) that the extent of reflection required for a finding of
premeditation is similar to the extent of reflection a driver
engages in when approaching a yellow traffic signal; (7) that for
appellant’s claim of self-defense to be valid, Vallivero “better
have” hit appellant so hard that he “annihilated his jaw”; and (8)
that reasonable doubt means “[i]f what the People are saying is
reasonable and [the] defense says it’s possible but unreasonable,
that’s a guilty verdict.”
Even assuming that defense counsel provided deficient
performance by failing to object to these arguments, appellant
was not prejudiced because the jury was instructed that counsel’s
arguments were not evidence (CALCRIM No. 222) and that the

18

APPENDIX A

jury was to follow the instructions given by the court even if
counsel’s comments conflicted with those instructions (CALCRIM
No. 200). The jury was also properly instructed on reasonable
doubt (CALCRIM Nos. 103, 220), motive (CALCRIM No. 370),
hiding evidence as consciousness of guilt (CALCRIM No. 371),
justifiable homicide based on self-defense (CALCRIM No. 505),
provocation (CALCRIM No. 522), and voluntary manslaughter
based on sudden quarrel or heat of passion (CALCRIM No. 570)
and imperfect self-defense (CALCRIM No. 571). Absent evidence
to the contrary, we presume the jury followed these instructions.
(People v. Johnson (2015) 61 Cal.4th 734, 770; see also People v.
Clair (1992) 2 Cal.4th 629, 663, fn. 8 [“We presume that jurors
treat the court’s instructions as a statement of the law by a judge,
and the prosecutor’s comments as words spoken by an
advocate”].) Appellant offers no such evidence here, so his claim
of ineffective assistance of counsel fails.
Dueñas
For the first time on appeal, appellant contends, in reliance
on Dueñas, supra, 30 Cal.App.5th 1157, that the trial court erred
by ordering him to pay a $30 criminal conviction assessment
(Gov. Code, § 70373) and a $40 court operations assessment
(§ 1465.8, subd. (a)(1)) without first determining his ability to pay
those assessments. In Dueñas, the court held that imposing
these assessments without a hearing on the defendant’s ability to
pay violates due process of law under both the federal and state
constitutions. (Dueñas, at p. 1168.) Neither statute expressly
prohibits the court from considering the defendant’s ability to
pay. By contrast, section 1202.4, subdivisions (b)(1) and (c)
expressly prohibit the trial court from considering a defendant’s
ability to pay a restitution fine unless the fine exceeds $300.

19

APPENDIX A

If the court imposes a restitution fine above the $300
statutory minimum, it may consider the defendant’s ability to
pay. (§ 1202.4, subd. (c).) Appellant was ordered to pay a $7,800
restitution fine, so he had the opportunity to bring to the court’s
attention any factors relevant to his ability to pay. (People v.
Avila (2009) 46 Cal.4th 680, 729.) He did not do so, so he
forfeited any challenges to the restitution fine. (Ibid.) Appellant
likewise did not object to the two assessments he now challenges.
We need not decide whether he forfeited his claims because under
the circumstances present here, where appellant did not object to
the $7,800 restitution fine, “he surely would not complain on
similar grounds regarding an additional” $70 in assessments.
(People v. Gutierrez (2019) 35 Cal.App.5th 1027, 1033.)
Cumulative Error
Appellant contends that the cumulative effect of the alleged
errors deprived him of his due process rights and resulted in the
denial of a fair trial. We reject this contention because there is
no prejudicial error to cumulate. (People v. Koontz (2002) 27
Cal.4th 1041, 1094.)
DISPOSITION
The judgment is affirmed.
NOT TO BE PUBLISHED.

PERREN, J.
We concur:

GILBERT, P. J.

TANGEMAN, J.

20

APPENDIX A

Jacquelyn H. Duffy, Judge
Superior Court County of San Luis Obispo
______________________________
Jean Ballantine, under appointment by the Court of
Appeal, for Defendant and Appellant.
Xavier Becerra, Attorney General, Lance E. Winters,
Senior Assistant Attorney General, Scott A. Taryle and Viet H.
Nguyen, Deputy Attorneys General, for Plaintiff and Respondent.

APPENDIX A

Filed 3/25/20 P. v. Giese CA2/6

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SIX
THE PEOPLE,
Plaintiff and Respondent,
v.
CHARLES CHAD GIESE,

2d Crim. No. B292208
(Super. Ct. No. 15F-10827)
(San Luis Obispo County)
ORDER MODIFYING OPINION
AND DENYING REHEARING
[NO CHANGE IN JUDGMENT]

Defendant and Appellant.

THE COURT:
It is ordered that the opinion filed on February 26, 2020, be
modified as follows:
1.
On page 11, the first sentence of the first full
paragraph beginning “Sufficient evidence” is deleted and replaced
with the following:

APPENDIX A

Sufficient evidence supports appellant’s conviction of
willful, premeditated and deliberate murder.
2.
On page 19, the last sentence of the first partial
paragraph beginning “Appellant offers no such evidence” is
deleted and replaced with the following:
Moreover, the prosecutor’s allegedly improper arguments
were brief and the evidence of appellant’s guilt was
overwhelming. (See, e.g., People v. Centeno (2014) 60 Cal.4th
659, 676-677 [applying harmless error analysis to claim that trial
counsel provided ineffective assistance by failing to preserve clam
that prosecutor repeatedly misstated the law on reasonable doubt
during rebuttal].) Appellant’s claims of ineffective assistance of
counsel thus fail.
This modification does not change the judgment.
Appellant’s petition for rehearing is denied.

2

APPENDIX A

Filed 2/26/20 P. v. Giese CA2/6 (unmodified opinion)

NOT TO BE PUBLISHED IN THE OFFICIAL REPORTS
California Rules of Court, rule 8.1115(a), prohibits courts and parties from citing or relying on opinions
not certified for publication or ordered published, except as specified by rule 8.1115(b). This opinion
has not been certified for publication or ordered published for purposes of rule 8.1115.

IN THE COURT OF APPEAL OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION SIX
THE PEOPLE,
Plaintiff and Respondent,

2d Crim. No. B292208
(Super. Ct. No. 15F-10827)
(San Luis Obispo County)

v.
CHARLES CHAD GIESE,
Defendant and Appellant.

Charles Chad Giese appeals the judgment entered after a
jury convicted him of willful, deliberate, and premeditated
murder (Pen. Code,1 §§ 187, 189) and found true allegations that
in committing the murder he used two deadly weapons, i.e., a
baseball bat and a knife (§ 12022, subd. (b)(1)). The trial court
sentenced him to 26 years to life in state prison and ordered him
to pay fines and fees including a $7,800 restitution fine (§ 1202.4,
subd. (b)), a $30 criminal conviction assessment (Gov. Code,
All statutory references are to the Penal Code unless
otherwise stated.
1

APPENDIX A

§ 70373), and a $40 court operations assessment (§ 1465.8, subd.
(a)(1)). Appellant contends (1) his extrajudicial statements to law
enforcement were admitted against him in violation of Miranda
v. Arizona (1966) 384 U.S. 436 [16 L.Ed.2d 694] (Miranda); (2)
the evidence is insufficient to support his conviction of first
degree murder; (3) the court erred in excluding evidence of the
victim’s drug use; (4) the jury was erroneously instructed on the
right of self-defense available to a person who starts a fight or
engages in mutual combat; (5) the prosecutor committed
misconduct during closing argument, and defense counsel
provided ineffective assistance by failing to object; and (6) the
cumulative effect of the alleged errors compels the reversal of his
conviction. Appellant also contends the court erred in imposing
the criminal conviction and court operations assessments without
first determining his ability to pay those assessments, as
contemplated in People v. Dueñas (2019) 30 Cal.App.5th 1157
(Dueñas). We affirm.
STATEMENT OF FACTS
In early 2015,2 appellant began renting a room in Walter
Vallivero’s mobile home. Shortly after appellant moved in, the
manager of the mobile home park began receiving complaints
from other residents about frequent loud arguments at
Vallivero’s home. There were also complaints that appellant had
urinated in public and was acting strangely. Several residents
requested that appellant be ordered to leave the mobile home
park. Shawn Reed, the owner of the park, sent Vallivero a letter
outlining the complaints regarding appellant and stating that he
would be asked to leave the park if his inappropriate behavior
continued.
2

All date references are to the year 2015.

2

APPENDIX A

On September 5, the police were called to Vallivero’s home
regarding a physical altercation between appellant and Vallivero.
Appellant told the police that he and Vallivero were arguing
about trash in the kitchen when Vallivero reached into the
cushion on the couch and pulled out a BB gun. Appellant
grabbed the hand that was holding the gun and repeatedly
punched Vallivero in the face. Vallivero told the responding
officers that appellant repeatedly punched him in the face after
he confronted appellant about the messy kitchen. According to
Vallivero, whose face was bloody and swollen, it was appellant
who grabbed the BB gun from the couch cushions before running
outside.
A few days later, Reed sent Vallivero a letter referring to
the recent incident and revoking Vallivero’s right to have
appellant as a renter. On September 17, Reed sent Vallivero
another letter informing him that appellant had 30 days to
vacate the premises. Ten days later, Reed sent Vallivero a letter
informing him that appellant had been observed recklessly
driving in the mobile home park while intoxicated. Vallivero
subsequently told Reed “he was having a hard time getting an
agreement with [appellant] to vacate the park.” On October 7,
appellant was formally served with notice of the eviction
proceedings against him.
On the morning of November 16, appellant’s mother
Brenda Caves called 911 and reported that appellant had hit his
roommate with a baseball bat, that the roommate did not appear
to be breathing, and that appellant had put him in the bathtub.
San Luis Obispo County Sheriff’s Deputies Dustin Phillips and
Jason Hall responded to Caves’s house. Appellant was outside
the house with Caves and his hand was bandaged. Appellant

3

APPENDIX A

requested medical assistance and Deputy Hall rode with him in
an ambulance to the hospital. While they were in the ambulance,
appellant said he cut his finger on a glass bottle and that his jaw
hurt because he had been hit with a fist.
Vallivero’s body was found in the bathtub. He had a
laceration to his left arm, a deep incision wound on the back of
his neck, lacerations and fractures along the left side of his head,
stab wounds to his back, and numerous wounds to his head and
body that were consistent with blunt force trauma. Vallivero also
had defensive wounds on his forearms, hands, and wrists, and
bruises on the right side of his torso. The cause of death was
blunt force injuries to the head. Toxicology results showed that
Vallivero had a 0.19 blood alcohol level; tests for controlled
substances were negative.
Appellant was interviewed at the hospital and later at the
sheriff’s station. He said he had just finished cleaning the
kitchen when Vallivero arrived home after buying beer and told
him to “get the fuck out of [his] house.” Appellant became
“heated” and armed himself with a rock because he was going to
walk past Vallivero and was “sick of [Vallivero’s] shit.” Vallivero
told appellant, “I’m going to kill you. You’re going to fucking die.”
Vallivero punched appellant. Appellant hit Vallivero with the
rock and struck him approximately three times on the head with
a beer bottle. The bottle broke and Vallivero fell backwards onto
the couch. Appellant picked up a baseball bat and hit Vallivero
with it, causing Vallivero to fall to the floor.
Appellant continued to hit Vallivero with the bat as
Vallivero lay motionless on the floor. Appellant then retrieved a
knife and tried to stab Vallivero in the chest “to make sure that

4

APPENDIX A

he was gone.” The knife would not penetrate Vallivero’s chest, so
appellant stabbed him in the neck.
After placing Vallivero’s body in the bathtub, appellant
drank Vallivero’s beer and attempted to clean the house. He also
considered fleeing, but ultimately called Caves and told her what
had happened.
Appellant believed that he had to defend himself because
Vallivero “kept punching” him, but acknowledged that Vallivero
had struck him only once or twice. Appellant felt that his
conduct was due to feelings of frustration that “went way
overboard” and added that if he could “take it back [he] would.”
DISCUSSION
Miranda Motion
Appellant contends the trial court erred in denying his
motion to exclude the statements he made at the hospital and
sheriff’s station on the ground they were obtained in violation of
Miranda. We are not persuaded.
Miranda provides that a person questioned by law
enforcement after being “taken into custody” must first be
warned that he or she has the right to remain silent, that any
statements that he or she makes may be used against the person,
and that he or she has a right to the presence of retained or
appointed counsel. (Miranda, supra, 384 U.S. at p. 444.) For the
Miranda rule to apply, there must be an interrogation by the
police while the suspect is in police custody. (Id. at p. 478.)
Whether a person is in custody “depends on the objective
circumstances of the interrogation, not on the subjective views
harbored by either the interrogating officers or the person being
questioned.” (Stansbury v. California (1994) 511 U.S. 318, 323
[128 L.Ed.2d 293].) “The question whether [the] defendant was

5

APPENDIX A

in custody for Miranda purposes is a mixed question of law and
fact.” (People v. Ochoa (1998) 19 Cal.4th 353, 401.) “[A]n
appellate court must ‘apply a deferential substantial evidence
standard’ [citation] to the trial court’s factual findings regarding
the circumstances surrounding the interrogation, and it must
independently decide whether, given those circumstances, ‘a
reasonable person in [the] defendant’s position would have felt
free to end the questioning and leave’ [citation].” (People v.
Leonard (2007) 40 Cal.4th 1370, 1400.)
“To determine whether an interrogation is custodial we
consider a number of circumstances, including: ‘whether contact
with law enforcement was initiated by the police or the person
interrogated, and if by the police, whether the person voluntarily
agreed to an interview; whether the express purpose of the
interview was to question the person as a witness or a suspect;
where the interview took place; whether police informed the
person that he or she was under arrest or in custody; whether
they informed the person that he or she was free to terminate the
interview and leave at any time and/or whether the person’s
conduct indicated an awareness of such freedom; whether there
were restrictions on the person’s freedom of movement during the
interview; how long the interrogation lasted; how many police
officers participated; whether they dominated and controlled the
course of the interrogation; whether they manifested a belief that
the person was culpable and they had evidence to prove it;
whether the police were aggressive, confrontational, and/or
accusatory; whether the police used interrogation techniques to
pressure the suspect; and whether the person was arrested at the
end of the interrogation.’” (People v. Torres (2018) 25 Cal.App.5th
162, 172-173.)

6

APPENDIX A

At the hearing on appellant’s suppression motion, Deputy
Hall testified that appellant was subjected to a patdown search
for the deputies’ safety when they first encountered him at
Caves’s house. Appellant was never handcuffed and Deputy Hall
never asked him any questions about Vallivero’s killing. Deputy
Hall rode with appellant in the ambulance to the hospital to
ensure the paramedics’ safety while Deputy Phillips followed in
the patrol car.
Detective David Marquez arrived at the hospital and
introduced himself to appellant as he lay in a bed in the
emergency room. Detective Marquez asked appellant if he
needed anything and told him he would speak to him after he
was treated.
Detective Nathan Paul subsequently arrived and
introduced himself to appellant. Detective Paul told appellant he
was there to find out what had happened and asked if appellant
was willing to accompany him to the sheriff’s station to talk.
Appellant said “okay” then added, “I don’t know my rights. . . . I
defended myself.” Detective Paul responded “you’re not under
arrest. If you defended yourself, that’s what I want to hear
about.” Appellant replied: “My mom’s working on an attorney
. . . and [she] told me not to talk to anyone cause I could
incriminate myself . . . . I don’t know my rights, so um, I was in a
fight and I defended myself and – and it got really bad and then I
didn’t know what to do after that point. I tried to clean up the
mess.” Appellant proceeded to provide a detailed account of what
had happened. At one point during the interview, appellant was
allowed to use the bathroom.
After appellant had been treated, Detective Paul asked if
he was still willing to accompany him to the sheriff’s station for

7

APPENDIX A

further questioning. Appellant asked if he could smoke a
cigarette after they arrived at the sheriff’s station and the
detective replied, “When we get there we’ll let you . . . stand
outside and . . . smoke as many as you need.” Appellant then
asked, “I know you’ve probably gotta book me, right?” The
detective replied in the negative and told appellant he was not
being handcuffed and was a “free walking man.”
After they arrived at the sheriff’s station, appellant was
allowed to smoke a cigarette outside and use a restroom without
any supervision. Before conducting the interview, Detective Paul
confirmed with appellant that he was there voluntarily and
reiterated he was not under arrest. During the interview,
appellant took at least three cigarette breaks and a bathroom
break. Near the end of the interview, appellant was told he was
being detained for killing Vallivero.
In denying appellant’s suppression motion, the court found
that appellant had voluntarily agreed to be interviewed; that
there was no custodial interrogation because a reasonable person
in appellant’s position would have felt free to terminate the
interview until the point he was told he was being detained; and
that appellant had never unequivocally indicated that he wanted
an attorney. The court further found that law enforcement had
not dominated or controlled the course of the interrogation and
that appellant had “set the pace” of the interview.
The court did not err in denying appellant’s motion. At
both the hospital and the sheriff’s station, appellant was free of
physical restraints and was advised he was not under arrest and
was free to leave. Moreover, no weapons were displayed and
there is nothing to indicate that the deputies and detectives who
spoke to him were aggressive or accusatory or employed special

8

APPENDIX A

techniques to pressure him. On the contrary, every effort was
made to ensure that appellant was comfortable and that his
needs were accommodated. The court thus correctly found, under
the totality of the circumstances, that appellant’s statements at
the hospital and the sheriff’s station were not the result of a
custodial interrogation. (People v. Leonard, supra, 40 Cal.4th at
p. 1400.) The cases appellant cites in support of his claim are
plainly inapposite.3
To the extent appellant claims that his statements were
involuntary because the detectives exploited his mental illness
and unduly prolonged his interview at the sheriff’s station, those
were not raised below and are thus forfeited. In any event,
appellant fails to establish that the detectives who interviewed
him engaged in coercive conduct. (See People v. Bradford (1997)
14 Cal.4th 1005, 1041 [recognizing that “[c]oercive police activity
is a necessary predicate” to a finding that a confession was
involuntary].) Moreover, the identified circumstances that
allegedly rendered appellant’s statements involuntary took place
at the sheriff’s station. Because appellant had already provided a
detailed account of the incident while he was at the hospital, any
error in admitting the statements he subsequently made at the
sheriff’s station was harmless beyond a reasonable doubt.
(Chapman v. California (1967) 386 U.S. 18, 24 [17 L.Ed.2d 705];
People v. Case (2018) 5 Cal.5th 1, 22 [Miranda violations subject
to harmless error standard of review set forth in Chapman].)
Appellant also fails to inform us that one of the cases
upon which he relies, People v. Boyer (1989) 48 Cal.3d 247, has
been disapproved to the extent it “may be read to suggest that an
officer’s subjective focus of suspicion is an independently relevant
factor in establishing custody for the purposes of Miranda . . . .”
(People v. Stansbury (1995) 9 Cal.4th 824, 830, fn. 1.)
3

9

APPENDIX A

Sufficiency of the Evidence
Appellant claims that his murder conviction must be
reversed because the evidence is insufficient to prove he killed
Vallivero with premeditation and deliberation. In reviewing this
claim, we “must review the whole record in the light most
favorable to the judgment to determine whether it contains
substantial evidence—i.e., evidence that is credible and of solid
value—from which a reasonable trier of fact could have found the
defendant guilty beyond a reasonable doubt.” (People v. Nguyen
(2015) 61 Cal.4th 1015, 1054-1055, internal quotation marks
omitted.) We “presume in support of the judgment the existence
of every fact the jury could reasonably have deduced from the
evidence.” (People v. Zamudio (2008) 43 Cal.4th 327, 357.) “A
reversal for insufficient evidence ‘is unwarranted unless it
appears “that upon no hypothesis whatever is there sufficient
substantial evidence to support’” the jury’s verdict.” (Ibid.)
The “mental state [for first-degree murder] is uniquely
subjective and personal. It requires more than a showing of
intent to kill; the killer must act deliberately, carefully weighing
the considerations for and against a choice to kill before he or she
completes the acts that caused the death.” (People v. Chiu (2014)
59 Cal.4th 155, 166.) The process of premeditation and
deliberation does not require any extended period of time.
(People v. Watkins (2012) 55 Cal.4th 999, 1026.) The test is one of
the extent of reflection rather than the duration of time. (Ibid.)
Our Supreme Court has identified three categories of
evidence relevant to establishing premeditation and deliberation.
(People v. Anderson (1968) 70 Cal.2d 15, 26-27; People v. Brooks
(2017) 3 Cal.5th 1, 58-59; People v. Houston (2012) 54 Cal.4th
1186, 1216.) The categories include events occurring before the

10

APPENDIX A

killing that indicate planning, motive to kill, and manner of
killing that reflects a preconceived design to kill. (Anderson, at
pp. 26-27.) The factors are neither exclusive nor invariably
determinative. (Brooks, at p. 59; Houston, at p. 1216.) Evidence
of each category is not required to affirm a judgment of first
degree murder. (People v. Mejia (2012) 211 Cal.App.4th 586,
605.) The factors are merely a guide in determining whether the
evidence supports an inference that the killing occurred as a
result of preexisting reflection rather than a rash impulse.
(Brooks, at p. 59.)
Sufficient evidence supports appellant’s conviction of
attempted premeditated and deliberate murder. Appellant’s
arguments to the contrary fail to acknowledge the standard of
review, which compels us to view the evidence in the light most
favorable to the judgment. (People v. Nguyen, supra, 61 Cal.4th
at pp. 1054-1055.)
Prior to the killing, appellant armed himself with a rock.
After Vallivero allegedly punched appellant, appellant hit him on
the head with the rock and proceeded to break a beer bottle over
his head, causing him to fall on the couch. Appellant then armed
himself with a baseball bat and repeatedly hit Vallivero in the
head as he lay motionless on the ground. To make sure Vallivero
was dead, appellant retrieved a knife and stabbed him in the
neck. The circumstances and manner of the killing amply
support the jury’s findings of premeditation and deliberation.
(People v. Anderson, supra, 70 Cal.2d at pp. 26-27; see also People
v. Perez (1992) 2 Cal.4th 1117, 1128 [recognizing that defendant’s
use of a second knife to inflict post mortem wounds, when
considered in conjunction with the manner of killing, “could
easily have led the jury to infer premeditation and

11

APPENDIX A

deliberation”].) Appellant also expressed a motive for the killing
by acknowledging he was angry about being evicted, was “sick of
[Vallivero’s] shit,” and wanted him “gone.” Appellant’s claim of
insufficient evidence thus fails.
Evidence of Vallivero’s Drug Use
Appellant also contends the court abused its discretion and
violated his due process rights by excluding evidence of
Vallivero’s drug use. We disagree.
Only relevant evidence is admissible. (Evid. Code, § 350.)
Evidence is relevant if it has “any tendency in reason to prove or
disprove any disputed fact that is of consequence to the
determination of the action.” (Evid. Code, § 210.) A trial court
has discretion to exclude relevant evidence when its prejudicial
effect substantially outweighs its probative value. (Evid. Code,
§ 352.) Evidentiary rulings are reviewed for abuse of discretion,
and a court’s decision will be upheld unless it exceeds the bounds
of reason. (People v. Williams (1997) 16 Cal.4th 153, 196-197; see
also People v. Stitely (2005) 35 Cal.4th 514, 550.)
When appellant was interviewed, he stated that Vallivero
used methamphetamine and was “drinking and on meth” when
the crime occurred. Prior to trial, the prosecution moved in
limine to exclude any reference to Vallivero’s methamphetamine
and cocaine use as irrelevant and substantially more prejudicial
than probative under Evidence Code section 352. The court
granted the motion after finding that the evidence was both
irrelevant and unduly prejudicial because no methamphetamine,
cocaine, or other illicit drugs were found in Vallivero’s system
after his death. Later in the proceedings, defense counsel moved
to admit Vallivero’s medical records showing that Vallivero had
admitted using methamphetamine and had been diagnosed as a

12

APPENDIX A

chronic user of the drug. The court denied the motion and
reiterated its prior ruling that evidence of Vallivero’s
methamphetamine use was unduly prejudicial under Evidence
Code section 352.
The court did not err. Appellant contends that “his
statements about how he personally experienced Vallivero to act
unreasonably and violently when Vallivero was using or high on
meth were relevant to show the reasonableness of appellant’s fear
and resulting actions.” It is undisputed, however, that Vallivero
was not under the influence of methamphetamine or any other
illicit drug when he was killed. Moreover, it is not reasonably
probable that appellant would have achieved a more favorable
result had the challenged evidence been admitted. As the People
aptly put it, “appellant’s alleged belief that Vallivero was under
the influence of methamphetamine, as opposed to just alcohol,
had minimal or no probative value to any claim of self-defense.”
Accordingly, any error in excluding evidence of Vallivero’s drug
use was harmless. (People v. Watson (1956) 46 Cal.2d 818, 836;
People v. Mullens (2004) 119 Cal.App.4th 648, 659 [error in
excluding evidence under Evidence Code section 352 reviewed
under the harmless error standard set forth in Watson].)
Mutual Combat/Initial Aggressor (CALCRIM No. 3471)
The trial court instructed the jury on the doctrines of selfdefense (CALCRIM No. 505) and imperfect self-defense
(CALCRIM No. 571). Over appellant’s objection, the jury was
also instructed on the limitations of the right of self-defense to
one who engaged in mutual combat or acted as the initial
aggressor, as provided in CALCRIM No. 3471.4 Appellant
The jury was instructed as follows: “A person who
engages in mutual combat or who starts a fight has a right to
4

13

APPENDIX A

contends the court committed prejudicial error and violated his
federal constitutional rights by giving the mutual combat
instruction. This contention lacks merit.
“It is error to give an instruction which, while correctly
stating a principle of law, has no application to the facts of the
case.” (People v. Guiton (1993) 4 Cal.4th 1116, 1129.) Error in
giving an inapplicable instruction is one of state law subject to
the Watson test for prejudice, under which reversal is required if
it is reasonably probable the defendant would have obtained a
more favorable result in the absence of the error. (Id. at p. 1130;
Watson, supra, 46 Cal.2d at p. 836.)
The court did not err in giving the challenged instruction.
There was evidence from which the jury could have found that
appellant not only engaged in mutual combat with Vallivero, but
also acted as the initial aggressor. Although appellant offers his

self-defense only if: [¶] 1. He actually and in good faith tried to
stop fighting; [¶] 2. He indicated, by word or by conduct, to his
opponent, in a way that a reasonable person would understand,
that he wanted to stop fighting and that he had stopped fighting;
[¶] AND [¶] 3. He gave his opponent a chance to stop fighting.
[¶] If the defendant meets these requirements, he then had a
right to self-defense if the opponent continued to fight. [¶]
However, if the defendant used only non-deadly force, and the
opponent responded with such sudden and deadly force that the
defendant could not withdraw from the fight, then the defendant
had the right to defend himself with deadly force and was not
required to try to stop fighting, or communicate the desire to stop
to the opponent, or give the opponent a chance to stop fighting.
[¶] A fight is mutual combat when it began or continued by
mutual consent or agreement. That agreement may be expressly
stated or implied and must occur before the claim of self-defense
arose.” (Italics omitted.)

14

APPENDIX A

self-serving assertion that Vallivero initiated the incident by
punching him, the jury was entitled to reject that assertion.
According to Vallivero, appellant had been the initial aggressor of
a prior fight between the two regarding the cleanliness of the
kitchen. Moreover, appellant admitted that he approached
Vallivero with a rock in his hand because he “knew” the two of
them were going to fight. The jury could thus reasonably find
that appellant intended to fight with Vallivero before Vallivero
allegedly punched him.
Even if the instruction should not have been given, the
error would be harmless. The jury was separately instructed
pursuant to CALCRIM No. 3474 that “[t]he right to use force in
self-defense continues only as long as the danger exists or
reasonably appears to exist. When the attacker withdraws or no
longer appears capable of inflicting any injury, then the right to
use force ends.” Appellant continued to use deadly force against
Vallivero well after he had rendered Vallivero incapable of
inflicting any injury upon him. No reasonable juror thus would
have found that appellant killed Vallivero in self-defense or
imperfect self-defense. (People v. Gleghorn (1987) 193 Cal.App.3d
196, 201-202.)
The jury was also instructed pursuant to CALCRIM No.
200 that “[s]ome of the[] instructions may not apply, depending
on your findings about the facts of the case.” Because of this
instruction, “the jury is presumed to disregard an instruction if
the jury finds the evidence does not support its application.”
(People v. Frandsen (2011) 196 Cal.App.4th 266, 278; People v.
Olguin (1994) 31 Cal.App.4th 1355, 1381.) Because appellant
does not rebut this presumption or otherwise demonstrate a
reasonable probability that he would have achieved a more

15

APPENDIX A

favorable result had the challenged instruction not been given,
his claim fails. (People v. Guiton, supra, 4 Cal.4th at p. 1130.)
Prosecutorial Misconduct; Ineffective Assistance of Counsel
For the first time on appeal, appellant contends the
prosecutor committed misconduct by misstating the law eight
times in his closing argument. Anticipating our conclusion that
these claims are forfeited because defense counsel did not object
to any of the alleged misstatements, appellant alternatively
contends that counsel’s failure to object amounts to ineffective
assistance.
Prosecutorial misconduct exists “‘under state law only if it
involves “‘the use of deceptive or reprehensible methods to
attempt to persuade either the court or the jury.’”’” (People v.
Earp (1999) 20 Cal.4th 826, 858.) In more extreme cases, a
defendant’s federal due process rights are violated when a
prosecutor’s improper remarks “‘“‘infect[] the trial with
unfairness,’”’” making it fundamentally unfair. (Ibid.) “‘“To
preserve a claim of prosecutorial misconduct for appeal, a
defendant must make a timely and specific objection and ask the
trial court to admonish the jury to disregard the improper
argument.”’ [Citation.] A court will excuse a defendant’s failure
to object only if an objection would have been futile or if an
admonition would not have cured the harm caused by the
misconduct. [Citation.]” (People v. Jackson (2016) 1 Cal.5th 269,
349.)
Here, defense counsel did not object to the prosecutor’s
alleged misstatements and made no requests that the jury be
admonished. Moreover, appellant has not established that
objections or admonition would have been futile. Because the
alleged misconduct consisted of purported misstatements of law,

16

APPENDIX A

they could have easily been corrected by the trial court with an
admonition. (People v. Centeno (2014) 60 Cal.4th 659, 674
(Centeno).) Appellant’s claims of prosecutorial misconduct are
thus forfeited. (Ibid; People v. Jackson, supra, 1 Cal.5th at
p. 349.)
We also reject appellant’s claims that trial counsel provided
ineffective assistance by failing to object. “A party claiming
ineffective assistance must first demonstrate that his counsel’s
performance was deficient. [Citations.] In reviewing counsel’s
performance, we ‘exercise deferential scrutiny.’ [Citations.] To
that end, it is up to [appellant] to show his counsel’s performance
was deficient because his ‘“representation fell below an objective
standard of reasonableness . . . under prevailing professional
norms.”’ [Citation.] Second, even after a party demonstrates
ineffective assistance, he must also show he has been prejudiced,
i.e., ‘that there is a reasonable probability that, but for his
counsel’s unprofessional errors, the result of the proceeding
would have been different.’ [Citation.] If [appellant’s] showing as
to either component is insufficient, the claim fails. [Citation.]
Accordingly, if he cannot show prejudice, we may reject his claim
of ineffective assistance, and need not address the adequacy of
trial counsel’s performance. [Citations.]” (People v. King (2010)
183 Cal.App.4th 1281, 1298; Strickland v. Washington (1984) 466
U.S. 668, 688, 694 [80 L.Ed.2d 674].)
Moreover, “[t]he appellate record . . . rarely shows that the
failure to object was the result of counsel’s incompetence;
generally, such claims are more appropriately litigated on habeas
corpus, which allows for an evidentiary hearing where the
reasons for defense counsel’s actions or omissions can be
explored.” (People v. Lopez (2008) 42 Cal.4th 960, 966.) “‘[T]he

17

APPENDIX A

decision facing counsel in the midst of trial over whether to object
to comments made by the prosecutor in closing argument is a
highly tactical one’ [citations], and ‘a mere failure to object to
evidence or argument seldom establishes counsel’s incompetence’
[citation].” (Centeno, supra, 60 Cal.4th at p. 675.)
Appellant contends that during closing argument the
prosecutor misstated the law by asserting (1) that “if there is
motive, there’s first degree murder”; (2) that appellant’s efforts to
clean up the crime scene after he killed Vallivero “means [that]
he in his own mind knows he is guilty of murder”; (3) that
appellant could not be found to have acted in self-defense unless
he “reasonably believed he was in imminent danger of being
killed”; (4) that the provocation element of voluntary
manslaughter based on sudden quarrel or heat of passion was not
established by evidence that Vallivero had previously threatened
appellant, because two neighbors who allegedly heard Vallivero
make such threats were not concerned enough to call the police;
(5) that “if you find there is no imperfect self-defense, then it’s
murder”; (6) that the extent of reflection required for a finding of
premeditation is similar to the extent of reflection a driver
engages in when approaching a yellow traffic signal; (7) that for
appellant’s claim of self-defense to be valid, Vallivero “better
have” hit appellant so hard that he “annihilated his jaw”; and (8)
that reasonable doubt means “[i]f what the People are saying is
reasonable and [the] defense says it’s possible but unreasonable,
that’s a guilty verdict.”
Even assuming that defense counsel provided deficient
performance by failing to object to these arguments, appellant
was not prejudiced because the jury was instructed that counsel’s
arguments were not evidence (CALCRIM No. 222) and that the

18

APPENDIX A

jury was to follow the instructions given by the court even if
counsel’s comments conflicted with those instructions (CALCRIM
No. 200). The jury was also properly instructed on reasonable
doubt (CALCRIM Nos. 103, 220), motive (CALCRIM No. 370),
hiding evidence as consciousness of guilt (CALCRIM No. 371),
justifiable homicide based on self-defense (CALCRIM No. 505),
provocation (CALCRIM No. 522), and voluntary manslaughter
based on sudden quarrel or heat of passion (CALCRIM No. 570)
and imperfect self-defense (CALCRIM No. 571). Absent evidence
to the contrary, we presume the jury followed these instructions.
(People v. Johnson (2015) 61 Cal.4th 734, 770; see also People v.
Clair (1992) 2 Cal.4th 629, 663, fn. 8 [“We presume that jurors
treat the court’s instructions as a statement of the law by a judge,
and the prosecutor’s comments as words spoken by an
advocate”].) Appellant offers no such evidence here, so his claim
of ineffective assistance of counsel fails.
Dueñas
For the first time on appeal, appellant contends, in reliance
on Dueñas, supra, 30 Cal.App.5th 1157, that the trial court erred
by ordering him to pay a $30 criminal conviction assessment
(Gov. Code, § 70373) and a $40 court operations assessment
(§ 1465.8, subd. (a)(1)) without first determining his ability to pay
those assessments. In Dueñas, the court held that imposing
these assessments without a hearing on the defendant’s ability to
pay violates due process of law under both the federal and state
constitutions. (Dueñas, at p. 1168.) Neither statute expressly
prohibits the court from considering the defendant’s ability to
pay. By contrast, section 1202.4, subdivisions (b)(1) and (c)
expressly prohibit the trial court from considering a defendant’s
ability to pay a restitution fine unless the fine exceeds $300.

19

APPENDIX A

If the court imposes a restitution fine above the $300
statutory minimum, it may consider the defendant’s ability to
pay. (§ 1202.4, subd. (c).) Appellant was ordered to pay a $7,800
restitution fine, so he had the opportunity to bring to the court’s
attention any factors relevant to his ability to pay. (People v.
Avila (2009) 46 Cal.4th 680, 729.) He did not do so, so he
forfeited any challenges to the restitution fine. (Ibid.) Appellant
likewise did not object to the two assessments he now challenges.
We need not decide whether he forfeited his claims because under
the circumstances present here, where appellant did not object to
the $7,800 restitution fine, “he surely would not complain on
similar grounds regarding an additional” $70 in assessments.
(People v. Gutierrez (2019) 35 Cal.App.5th 1027, 1033.)
Cumulative Error
Appellant contends that the cumulative effect of the alleged
errors deprived him of his due process rights and resulted in the
denial of a fair trial. We reject this contention because there is
no prejudicial error to cumulate. (People v. Koontz (2002) 27
Cal.4th 1041, 1094.)
DISPOSITION
The judgment is affirmed.
NOT TO BE PUBLISHED.

PERREN, J.
We concur:

GILBERT, P. J.

TANGEMAN, J.

20

APPENDIX A

Jacquelyn H. Duffy, Judge
Superior Court County of San Luis Obispo
______________________________
Jean Ballantine, under appointment by the Court of
Appeal, for Defendant and Appellant.
Xavier Becerra, Attorney General, Lance E. Winters,
Senior Assistant Attorney General, Scott A. Taryle and Viet H.
Nguyen, Deputy Attorneys General, for Plaintiff and Respondent.

APPENDIX A

SUPREME COURT

Fl LED
Court of Appeal, Second Appellate District, Division Six - No. B292208

MAY 2 7 2020

Jorge Navarrete Clerk

S261456

IN THE SUPREME C.OURT OF CALIFORNIA

Deputy

En Banc
THE PEOPLE, Plaintiff and Respondent,
. ··- -

v.

---·- - -

....· ··-· - -· - -· ------ - - - - - - - - -

CHARLES CHAD GIESE, Defendant and Appellant.

The petition for review is denied.

CANTIL-SAKAUYE
Chief Justice

APPENDIX B

....
({.. if)

"""°"'
.-t.:i.'

_:S'
-.,r.-"'

;...d\1J

0_.....
C!H.:!'.i

---uJ ::.-

~~

i---.,.

~t..0
(...)C)

cw
oct-

",_:.._,.\

~

~

v'

pf-

...,.ltd
01:;J
_.-,;
.;:,-":;..,,,-

N

,,-

~

-,er

...-

~
c::::>

c-l

w..l,:i'..
~J;: (./)
CCC;:)

0..-\
1--

1-

"4.

APPENDIX B

